               U.S. House of Representatives
         Committee on Oversight & Government Reform

               Subcommittee on National Security

              Subcommittee on Economic Growth,
               Job Creation & Regulatory Affairs




                    Statement for the Record

Oversight of the Federal Government’s Procurement of Ammunition

            The Honorable Patrick P. O’Carroll, Jr.
        Inspector General, Social Security Administration

                         April 25, 2013
Good morning, Chairman Chaffetz, Chairman Jordan, Congressman Tierney, Congressman Cartwright,
and members of both Subcommittees. I‟m pleased to appear before you today to discuss the Social
Security Administration (SSA) Office of the Inspector General‟s (OIG) procurement and use of
ammunition. It is gratifying to have this opportunity to set the record straight for you and for the public.

Last August, an online commentator took note of a routine solicitation for .357 caliber duty-carry
hollow-point ammunition that SSA‟s Office of Acquisition and Grants (OAG) had put forth on the
OIG‟s behalf. It was an unremarkable solicitation, no different from many others we have made in our
18 years as an OIG, and no different from those made by other OIGs across the Federal government.
Yet this website suggested that SSA was preparing for “civil unrest” resulting from rumored changes to
SSA benefits and programs. Public and media interest was widespread, to the point where even Jay
Leno included us in his “Tonight Show” monologue.

We were able to put a stop to the civil unrest rumor and other misinformation through complete
disclosure and transparency, delivered through conversations with the media and Congress and via two
blog posts of our own. Still, we continue to get questions from time to time, so again, I‟m pleased to be
here today to set the record straight on why the SSA-OIG needs bullets, how we procure them, and what
we do with them.

This year marks the 35th anniversary of the Inspector General Act of 1978, passed in the wake of
Watergate to ensure integrity in Federal government operations. It created 12 Inspectors General,
charged with conducting independent audits and investigations into fraud, waste, and abuse in their
respective Departments‟ programs and operations.

In the years since, Congress has expanded the community of Inspectors General to include virtually
every Federal entity, some 73 Inspectors General conducting audits and investigations across
government. In 2008, Congress even created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), an informal governing body of IGs to coordinate and facilitate the audit and
investigative activities of its 73 members.

While the SSA-OIG is one of the largest OIGs, it is by no means unique. Our counterparts in almost
every other OIG have sworn Federal law enforcement agents conducting criminal investigations, making
arrests, and carrying weapons. In fact, we obtained over 1,400 criminal convictions last year, physically
making 552 arrests, while completing 7,833 criminal investigations. These investigations bring our
agents into contact with violent felons, angry subjects, and frightened witnesses. To ask our agents to do
so unarmed would be irresponsible, unfair to them and their families, and dangerous to the public.

For many years, our authority to carry weapons came not through statutory authority (which the IG Act
did not originally provide), but through Memoranda of Understanding (MOU) with the U.S. Marshals
Service. In fact, from the creation of the SSA-OIG in 1995 (when SSA became independent from the
Department of Health and Human Services) until passage of the Homeland Security Act of 2002, we
operated under such an MOU, and our agents were designated Special Deputy U.S. Marshals. The
MOU required, from day one of our operation, that all sworn agents comply with the Attorney General‟s
Guidelines for Federal Law Enforcement Agents, which included (and still includes) a requirement that
all agents undergo quarterly firearms qualifications.



                                                     1
In 2002, when the Homeland Security Act was enacted, our law enforcement authority became statutory.
While we were no longer subject to the MOU with the Marshals Service, the new statutory authority
carried the same central requirement: compliance with the Attorney General guidelines, including
quarterly firearms qualification.

Those quarterly qualifications, in which our agents use the same hollow-point ammunition they carry in
the course of their duties, require that each agent complete a 60-round course of fire with a minimum
score of 70 percent. If they do not achieve this score, they may try again twice more, for a potential total
of 180 rounds. Often, even if an agent passes on his or her first attempt, a second round is completed,
meaning that many agents use at least 120 bullets, and some as many as 180. Using 120 as an average,
our 290 sworn agents, firing 120 shots four times a year would require a total of 139,000 bullets.

However, once a year, our agents must also qualify during a 36-round „low light‟ exercise. Even if all
290 agents passed this exercise on the first try, that would require another 10,440 bullets, bringing the
total, conservatively, to 149,440 (and of course, some agents require two low-light courses to qualify, so
this exercise could require 20,880 rounds, bringing the total to 159,880). Then of course, each agent
must have a quantity of bullets to carry in the course of investigations, and agents often undergo other,
non-mandatory but advisable, training, such as prone shooting and misfire drills.

As you can see, our solicitation for 174,000 bullets was offered based on a reasonable estimate of our
needs for the fiscal year; however, not every annual purchase total is the same. We make our purchases
based on our estimated need and available resources. In some years, we‟ve made significantly larger
purchases; in other years, significantly smaller ones.

Our care in procuring ammunition is apparent when viewed over time. Although records retention
requirements dictate that we retain these records for three years, we have eight years‟ worth of records at
hand, dating back to our first purchase of .357 caliber ammunition as we transitioned from another duty
weapon. These records show that we have purchased a total of 1,217,000 rounds of .357 caliber duty-
carry hollow-point ammunition since Fiscal Year (FY) 2005, or an average of 152,125 rounds per
year—a reasonable total given the qualification requirements described above.

We have provided spreadsheets reflecting our procurements over this period, and I am happy to answer
any questions I can to explain the year-to-year variances, which are as mundane as late deliveries that
required an additional order to avoid depletion of stock to timing based on resource availability. But
looking back as far as records allow establishes conclusively that we buy only what we need to do our
jobs.

Even looking at a single year—the 2012 purchase that inspired last August‟s controversy—what we
procured was, as I stated earlier, very close to our anticipated need for the year: 174,000 rounds of .357
caliber duty-carry hollow-points, another 38,000 rounds of lead-free .357 for use on ranges that require
lead-free ammunition, 9,000 rounds of 9mm simunition, and 38,250 rounds of appropriate 12-gauge
shotgun ammunition.

Simunition is non-lethal ammunition designed for certain training exercises. And agents must undergo
biannual familiarization (10 rounds) or qualification (20 rounds, up to two tries) drills on shotguns,



                                                     2
requiring between 11,600 (10 rounds per agent per familiarization drill) and 46,400 (40 rounds per agent
per qualification if two courses required to pass) shotgun rounds.

The total ammunition cost in FY2012 was $99,946, or approximately one-tenth of one percent of the
OIG‟s budget for the year.

We procure our ammunition through SSA‟s OAG, following all relevant statutory and regulatory
requirements. Some have questioned why the OIG uses an SSA component to accomplish this task; the
answer lies in efficiency. As you‟re well aware, government contracting is a technical and complex
bureaucratic operation. This OIG, like most, sees no need to expend taxpayer funds to duplicate effort
on administrative matters that the parent agency already performs, and performs well, when there is no
compromise of OIG independence and no conflict of interest.

Just as we adhere to all regulations related to the acquisition and procurement of ammunition, we take
great care in storing and protecting it, and in ensuring against waste and loss.

Firearms instructors in each Field Division are responsible for securing ammunition, tracking it,
distributing it, and accounting for it, though a system of logs and reports designed to ensure that no
ammunition goes unaccounted for.

While we have always been confident in our policies, our practices, and our people, we have, since last
August, been discussing an even more formalized, more centralized system of controls over ammunition
to ensure not only economy and security, but accountability. As a result, we recently enacted a new
ammunition procurement, storage, usage, and tracking policy that gives our headquarters greater control
through the Office of Investigations‟ Policy and Administration Division, and provides real-time
inventory information to guide and inform procurement decisions.

I often remind OIG employees that, as an oversight entity, we are held to a higher standard of
accountability, both individually and collectively. We are exacting in our audits and investigations, and
no less exacting in terms our own administrative operations, particularly concerning fiscal outlays,
procurement regulations, and inventory controls.

Once again, I appreciate the opportunity to stand before you today and explain our ammunition
procurement, usage, and tracking. I am happy to answer any additional questions you might have.




                                                     3
